No. __________
____________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
__________________________________________________
STEPHON LINDSAY, Petitioner,
v.
STATE OF ALABAMA, Respondent.
_________________________________________________
CORRECTED MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
__________________________________________________
Petitioner Stephon Lindsay, pursuant to Rule 39 of the Supreme Court Rules,
respectfully requests leave to file the attached Petition for a Writ of Certiorari to the
Alabama Court of Criminal Appeals without prepayment of costs and to proceed in

forma pauperis.
Petitioner was found to be indigent prior to trial and proceeded in forma

pauperis in all prior proceedings in state court. Pursuant to Ala. Code § 15-12-22(b),
the Etowah County Circuit Court appointed counsel to represent Mr. Lindsay on his
appeal in the court below. See Sup. Ct. R. 39(1). This order is attached as Appendix
A. See Appendix A, at 6.
For these reasons, Mr. Lindsay respectfully requests that this Court grant him
leave to proceed in forma pauperis in this Court.

1

Respectfully submitted,
/s/Alison N. Mollman
ALISON N. MOLLMAN
122 Commerce Street
Montgomery, AL 36111
(334) 269-1803
amollman@eji.org

Counsel of Record for Petitioner

April 16, 2021

2

Appendix A

DOCUMENT 120
ELECTRONICAIXY ETl,e1 14
6/3/20162:31 P M
31-CC-2013-000652.00
C IRCUIT COURT OF
ETOWAH COUNTY, ALABAM A
CASSANDRA JOHNSON, CLERK

ST A T E O F A L A B A M A

§

IN T H E C IK ^ v .-------------------

V s,

§

E T O W A H C O U N 'IT , A L A B A M A

S T E P H O N L IN D S A Y ,

§

C R IM IN A L D IV IS IO N

§

C A SE N O .

D e fe n d a n t.

§

Jim O M E N T OF THE COURT
P R O C E D U R A L H IS T O R Y O F T H E C A SE

The Defendant, Stephon Lindsay, was charged by indictm ent with one count of Capital
M urder alleging the intentional m urder of Maliyah Lindsay, a child under the age of 14 years,
in violation of Section i 3 A-5 -4 o(a)(i 5 ), Code of Alabama (1975)- A jury was struck and sworn
in this case, consisting of 4 males and 8 females. 6 of the jurors were Africnn-Ameriean, and 6
were white. No Batson challenges were made, and the Court finds that no Batgop violations
otxjurred in the selection of the jury. The case was subm itted to the juiy at the close of the
evidence for consideration of the charged offense. The jury subsequently returned its verdict
finding the Defendant guilty of Capital Murder as charged in the indictment, whereupon the
undersigned judge adjudicated the Defendant guilty in accordance with the jury verdict.
Following the adjudication of guilt, a separate sentencing hearing was conducted before the
trial jury.
After the jury heard evidence of applicable aggravating and mitigating
drcuriistances, the Jurors returned a unanimous verdict finding beyond a reasonable doubt that
the Defendan t had previously been convicted of a felony involving the use or threat of violence
to another person, an aggravating circumstance, pursuant to Section i 3 A-5 -4 9 ( 2 ). The jurors
also returned a unanim ous verdict finding that the State had proven beyond a reasonable doubt
their other proposed aggravating circumstance, th at the offense was particularly heinous,
atrocious or cruel as compared to other cjipital ofocnses, pursuant to Section 13A-'5~49CB)Piaving found unanimously that two statutory aggravating circumstances applied to this c a ^ ,
the jury then proceeded to return a unanimoiLS recom mendation that the Defendant be
sentenced to death, with all 12 ju rors voting to recommend death, and no jurors recommending
life w ithout parole.
The Defendant, having been found guilty by the j ury of the capital offense herein, to-wh:
intentionally causing the death of Maliyah Lindsay, a chdd under the age of 14 yeais, in
violation of Section l3A-5-4o(a)( i5), Code olA khanm (i975), this cause now comes before the
Court for the clcterniination of the appropriate sentence* The Court ordered and has received
a written presentence investigation report and on this date, conducled a separate sentencing
hearing, in accordance with the provisions of I'itle 13A, Section 13 A-5 -4 7 ) Orde.M AMhajn a
( 1975 )' At the sentencing hearing, the State, through the Distiict Attorney, has urged the Court
to fix the punishm ent at death dB recommended by the jury. The Defendant, through Counsel,
has argued th at the Court should fix punLshment at life without parole.

DOCUMENT 120

FA C T O A I. y iN D lN O N C O N C E R N IN G T H E U ^ m E IU .Y ^ N G P F E E N S E

Upon consideration of the evidence presented at the trial of the case in both the guilt
and the sentencing phases, as well as any evidentiary submissions and argum ents presented at
the sentencing hearing, the Court finds the essential facts to be as follows.
The testim ony and other evidence presented at trial established on or around March 5 ,
201.3, th e D efendant resided in an apartm ent o n W hite Avenue in Gadsden, Alabama, with his
girlfriend, Tasm ine Thom as, and tlieir tw o children, Maliyah Lindsay, w ho was 21 m onths old,
and a newborn daughter. On that date, the e v id e n t; indicated that 'Lasmine had gone to the
grocery store w ith the D efendant’s sister Tippany and niece, Tamiah. After th ey returned to
th e apartm ent, T asm ine was not feeling w ell, so she took Maliyah and the baby upstairs to
bathe, and lie dow n for bed. Later, the Defendant brought Tasm ine som ething to drink, and
told her that Tippany was going to take Maliyah to spend som e tim e with her, to give Tasm ine
som e tim e to rest. He took Maliyah from the bedroom that evening, and T asm ine never saw
her daughter alive again.

Over the next few days, Tasmine cared tor her newborn baby while she was also
recuperating from the recent birthj the Defendant was very solicitous and attentive, bringing
her food upstairs to allow her to rest. When she asked about Maliyah, he told her not to w ony,
ju st to get to feeling better. Finally, on March u , 2013 , Tasmine told the Defendant th at she
was going to go get Maliyah and bring her home. The Defendant left, stating that he was going
to get Maliyah and would he back. After several hours passal, the Defendant had not returned
home, Tasmine called Tippany to find out how Maliyah was doing, and to advise th at she was
coming to get her, Tippany said that she had not seen Maliyah since she was at their house on
March 5 . Tasmine then called Gadsden Police Departm ent and reported that Maliyah was
missing and listing the Defendant as a suspect. Officcirs from Gadsden Police D epaitm ent
immediately began searching for Stephon Lindsay. The Defendant was found at a residence on
Clayton Avenue in Gadsden the following evening, March 12 , 2013> When Detective Wayne
Ham m onds asked the Defendant where Maliyah was and if she was okay, he said no, she was
dead, and th at he killed her. He told Hammonds that he would tell him the whole stoiy in due
time.
Stephon Lindsay was taken to the Gadsden Police Department, where he was advised of
hu5 rights before being interviewed by Detective Hammonds and Sgt. Mike Ilooks. The
videotape of the Defendant’s statem ent to police was admitted into evidence at trial, in which
the Defendant talked at length about his religion, Yahweh bin Yahweh, and how he came to ^
a believer. He said th at he was told by Yahweh to kill his daughter. He said that the rea.son he
had to kill Maliyah wiis because she had become like an idol to him because of her beauty and
innocence, and because he loved her too much. Lindsay described how he m urdered his
daughter, cutting her throat and nearly decapitating the child. He told Hammonds that he used
an axe OT hatchet, to Idll the child on the evetutig of March ^013 the apart.n\ent oxi White
Avenue, while Tasmine and their infant daughter were sleeping upstairs. He said the m urder
took place in the room beside the kitchen. Lindsay told detectives th at during the m urder,
Maliyah tried to scream but he held his hand over her m outh
Lindsay said th at he placed Maliyah’s body in a tote bag, and put it on the frunt seat of
his enr when he left the apartm ent. He said th at he waited until veiy late to leave with the body,
2

115

DOCUMENT 120

then iust started driving, He said he left her body in the bag in the woods off the side of the
road.' He took the hatchet and his swords to another street and threw them mto the w ood^ He
then used Clorox and washing powders to clean up the blood in the apaitm ent. He left the
apartm ent on March ii, 2013 after telling Tasmine he was going to pick up Maliyah at his
sifter’s house. He said that he sold his car, but that he never intended to ran away, he^just
needed the money. Lindsay said he always intended to tell the trath about what he had done
to Maliyah.
Following the directions Lindsay gave, Gadsden police officers w ent to a wooded area
off Plainview Street and began to search. They found Maliyah’s body near a bucket in the wocms
containing a dead puppy. After searching that area, officers brought Lindsay to the ^ e n e . He
directed them to an area on the side of the m ountain oft Brentwood Avenue, where he said he
threw the hatchet and the swords into the woods. Investigators from Gadsden Police
Departm ent, the Etowah County Sheriffs Department, the Etowah County Drug Enforcement
Unit, and agents from the Center for Applied Forensics at Jacksonville State University
conducted an extensive search of the heavily wfxxled hillside that w ent on throughout the night
into the following d.£iy* Officers foutKl two knives or swords tfiHt h<id bolongod to Linds^^
but the hatchet
not recovered, due to the steep terrain and dense woods. On the othCT side
of the road, in a ravine, officers recovered several to m pieces of paper and/or cardboard
containing the Defendant’s religious writings, as well as an empty Clorox bottle.
At the scene on Brentwood Avenue, Sgt. Teri Farris described a conversation th at she
had with the Defendant, after he had again been advised of his rights. Farris said th at the
defendant dem onstrated for her and Commander Rob Savage of the Etowah County Drag
Enforcement Unit how he comm itted the m urder, showing them short chopping motions into
his hand. Farris said that tandsay was cooperative at the scene, and never refusecl to answer
questions. She said that he did not appear to be under the influence of drags or alcohol, and
rem ained very calm with no outbursts or erratic behavior.
Dr. Valerie Green from the Alabama Departm ent of Porensic Sciences testified th at she
conducted a postm ortem examination of Maliyah Lindsay s body. She testified that th e i6 were
sharp force injuries to both of Maliyah’s hands, which she described as defensive wounds. She
described multiple shall) force injuries to tlm body, primarily at the neck, and that she was
unable to determ ine the num ber of blows due to the am ount of soft tissue damage. She testified
th at there was some tissue remaining th at still connected the head to the body and th at the
child’s vertebrae was not completely transected, but the cuts to the front of the neck were deep
enough to expose the spinal cord, and were fatal injuries. Dr. Green also described a pattern of
linear bruises to the left side of the face that would have required a great deal of pressure to be
exerted. She said these markings were consistent with an adult hand being placed on Mahyah s
face to stop her from screaming. Dr. Green said that the aiiway was completely tiansected,
allowing no blood to the brain, and that the child bled and suffocated to death.
The defense called Dr. Robert Bare, a psychologist at Taylor H ardin Secure Medical
Facility to testify concerning a m ental evaluation he conducted on Stephoii Lindsay. Dr. Bare
said th at Lindsay suffered from delusions of grandeur and visual hallucinations; he reached
th at conclusion based upon reports from the psychiatry staff, social workers, nurses and other
day-to-day staff members who observed the Defendant while he was at Taylor Hardin. He
diagnosed the Defendant with paranoid schizophrenia and personality disorder. Dr. Bare
3

116

DOCUMENT 120

117

testified that he spent a total o f six to eight hours with LindsaVj and that he did not conduct any
psychological tests during that tim e. Dr. Bare said that he could not determ ine whether
Lindsay’s hallucinations were caused by m ental health issues or extensive substance abuse that
Lindsay d isclosed to him at or around the tim e o f the murder.

r o N a iisT O N S r e g a r i n g t h e u n d e r l y i n g o f f e n s e
From the evidence presented at tr ia l th e Court finds that the D efendant, Stephen
Lindsay, did intentionally a iu se the death o f Maliyah Lindsay, w ho w'as less than 14 years ot
age, in violation o f Title 13A, §i3A -5-40 (a) ( 15) Code o f Alabama ( 1975).

FiMmNr.5i C o n c e r n in g

the

E x is t e n c e

or

N o n - e x is t e n c e

OF AC,<rRAVATlNG CtRCUMSTANCES

The question o f w hether aggravating circmnstance.a existed in this case, w here the
alleged aggravating circum stances are not charged in the indictm ent, w as subm itted to the jury,
pursu 8^nt to th e procedure set forth xu Ex porte McGviff, 9^)8 So. 2d 1024 (AIUi. 2 0 0 4 )- The Shite
subm itted tw^o proposed aggravating circumstances; (i) that th e D efendant had been
previously convicted o f a felony involving th e use or threat o f violence to the person, in
£icxiord£titce w ith §13A~5"49 (.^) Code o f Al£ib£uit£i Ct975)i ^od ( 2) thiit the
offense w^s
especially h einou s, atrocious or cruel com pared to otlier capital offenses, in accordance with
13A - 5-49 ( 8) Code o f Alabama ( 1975)After consideration o f tlie testim ony and argum ents during the penalty phase o f th e trial,
including the adoption by th e State o f the evidence previously adm itted during the guilt phase
o f the trial, as well as additional testim ony elicited during the pen alty phase, including eridence
that the D efendant had been previously convicted o f a felony involving the use or threat o f
violence to the person, the jury returned verdicts regarding aggravating circum stances as
follows;

( 1)
The jury voted unanimously ( 12-0 ) that the State had proven beyond a reasonable
doubt th at the Defendant had been previously convicted of a felony involving the use or threat
of violence to the person, in accordance with §i 3 A-5-49 (2) Code of Alabama (1975)( 2)
The jury v o ta l nnaatm ously ( i 2~o) that the State had proven beyond a reasonable
doubt that the capital offense was especially heinous, atrocious or cruel com pared to other
capital offenses, in accordance with 13A- 5-49 ( 8) Code o f Alabama (i975)*
Accordingly, pursuant to the law as set forth hy th e Alabama Supreme Court and the
evidence presented in the guilt and sentencing portions of th e trial, this Court concurs and finds
that tw o ( 2) statutory aggravating circum stances exist In th is case, that the D efendant had been
previously convicted o f a felony involving th e use or threat o f violence to the person, in
accordance with § i3A -5-49 ( 2 ) Code o f Alabama ( 1975 ), and also that the capital offense was
especially heinous, atrocious or cruel aim pared to other capital offenses, in accordance with
§ 13A-5-49 ( 8) Code o f Alabama ( 1975 )-

DOCUMENT 120

P m m w i S m iM C E R N IN G T H E EXISTENCE O R N O N -EXISTENC^P
OF MITIGATCNO C i RCUM STANCM

The Court, in determining and weighing mitigating dreum stances in thus case, reviewed
all statutory mitigating circumstances, induding the testimony from Dr. Robert Bare presented
by the Defendant in support of their contention th at the offense was_ comm itted while
Defendant was acting under the influence of extreme m ental or emotional disturbance,
pursuant to §i 3 A-5 ~5 i (2 ) Code of Alabama (1975); an d /o r that he lacked the capacity to
appreciate the criminality of his conduct or to conform his conduct to the requirem ents of the
law pursuant to §i3A-5-5i (6) Code of Alabama (i975)- The Court notes th at Dr, Bare was
unable to give an opinion as to whether the Defendant's symptoms at the tim e ot the offei^e
were caused by actual mental illness or extensive polysubstance abuse. 1 he Court tinds that
Dr. Bare’s testim ony was insufficient to support a finding that an applicable statutory mitigator
existed in this cause; however, the Court did consider and weigh that testimony as a nonstatutoiy mitigating factor in this cause.
T'he Court has also considered all of the evidence presented by the Defendant during the
penalty/ sentencing phase of the trial regarding non-staPitory mitigators, including testimony
from his stepfather and his sister, and their love and concern for him. The Court has also
considered and carefully weighed the testimony of the Defendant s mitigation specialist The
Court notes th at there was evidence of serious abuse and neglect of this Defendant as a child, a
significant absence of parental stability and nurturance (an alcoholic m other, and multiple
stepfathers, some of whom were physically abusive to the Defendant), and the absenc^ of a
stable home environm ent until he was placed in the custody of his maternal grandm other at
around 13 years of age. The Court notes that the Defendant’s sister and his form er stepfather
appear to have loved and cared for him, both as a child and as an adult, 'fhe Court timls and
considers as a nou-statutory mitigating factor that Defendant’s family loved Defendant, that
they felt the love that Defendant had for them, that they believe th at he has good and admirable
qualities, and th a t they urge this Court to spare the Defendant’s life so th at he will have an
opportunity to continue to be a loved, valued member of their frie n ^ h ip or family circles. The
Court further finds and considers as mitigating evidence in the Defendant s behalf ail relevant
evidence of the Defendant’s life, background, family and education hlstoiy, and accords it the
weight to which it is due.
The Court finds no evidence that, the victim participated in the Defendant’s conduct or
consented to it. The Court farther finds no evidence that the Defendant acted under duress oi
under the substantial dom ination of another person.
This Court has coiisitiered all of the evidence presented by the Defendant in mitigation
in this case, and weighed that evidence individually, and as a whole. Each tact and
circumstance offered in mitigation was accepted and considered by the a m r t as valid and
accorded due weight in the sentence in this case.
The Court has also considered the death recommendation of the jury in its opinion and
determ ination, after duly finding the presence of the two aggravating factors, and its weighing
of those aggravators with the mitigators presented by the Defendant.

5

118

DOCUMENT 120

119

The Court has fuither considered all the evidence and argum ents of counsel presented
at the Defendant’s sentencing hearing held on this date, June 3 , 2 0 t 6 .
r-ONCT JTSIQN AN D H W m M m
Based upon consideration of the evidence presented both at the trial of this t^ause, and
the sentencing heating, the aggravating and mitigating circumstances applictvMe to this case,
the presentence report and the recom mendation of the jury contained m its
the Court hereby finds th at the aggravating circumstances set out m ^Uabama Code P3A -5“49
f 2 ) and (8) exist in this cnse, and are sufficient to support the sentence of death. The Court
further finds that the evidence presented in support of statutory mitigating circumstances was
not persuasive in this case, and th at the non-statutor>' mitigating cnm m stances heretofore
enum erated are insufficient to outweigh the aggravating circumstances.
finds th at the punishm ent of this Defendant, Stephen Lindsay, should he fixed by the Court at
death for the Capital Murder of Maliyah Lindsay.
On tliis the 16**^ day of May, 2016 , with said Defendant being now in open Court and
being asked by the Court if he has anything to say why the Judgm ent of the Court and Sentence
of Law should not be imposed upon him, Defendant made no response.
It is, therefore, O R D E R E D AND A D JU D G ED BY T H E COURT, and it is^the
JUIXIIVIENT AND SEN'TENCE OE T H E COU RT that the Defendant, be, and hereby is
sentenced to death by lethal injection, said sentence to be carried out in the m anner and at such
tim e and place as may be prescribed by law. The Defendant is further assessed ffie sum of
$ 10 ,0 0 0 .0 0 Dollars as a Viclim Compensation Assessment under §i5-23“i7(b)» Csde_of
Alab am a ( 1.9 7 5 ), plus i^uuit costs and attorneys’ fees.
It is further O R D ER E D BY T H E CO U RT that the Clerk and Court Reporter prepare
a transcript of these proceedings and foiward same to the Alabama Court of Criminal Appea s.
It is further ORI>ERED BY T H E COURT th at y a u l R o b e rt^ , E ^ and SfiOtt
S te w a rt. E so . are hereby appointed as counsel for the Defendant for purposes of his appeal.
ft is further O R D E R E D BY T H E COU RT th at the Clerk of this Court furnish a copy
of this J u ^ S ^ ^ ^
Court to the Defendant, the D e fe n d e r’s attorneys, and the District
Attorney.
D O N E this the 3 *’^ day of June, 2016 .

I AM 8. UGLETREE, CIRCUIT JUDGE

6

